Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 QUESTIONABLE BILLING FOR 

  MEDICARE INDEPENDENT 

   DIAGNOSTIC TESTING 

    FACILITY SERVICES 





                    Daniel R. Levinson

                     Inspector General


                      March 2012

                     OEI-09-09-00380 

EXECUTIVE SUMMARY: QUESTIONABLE BILLING FOR MEDICARE
INDEPENDENT DIAGNOSTIC TESTING FACILITY SERVICES
OEI-09-09-00380


WHY WE DID THIS STUDY

Independent Diagnostic Testing Facilities (IDTF), a type of Medicare provider, offer diagnostic
services and are independent of physicians’ offices or hospitals. IDTF services have historically
been vulnerable to abuse. In 1997, the Office of Inspector General found that 20 percent of
IDTFs were not at the locations on file with the Centers for Medicare & Medicaid Services
(CMS). In 2007, CMS reported that in Los Angeles, it had denied $163 million in IDTF charges
and terminated Medicare billing privileges for 83 IDTFs.

HOW WE DID THIS STUDY

To describe IDTF billing patterns and identify questionable IDTF claims, we conducted a
four-part review of such claims among geographic areas—specifically, Core Based Statistical
Areas (CBSA). Based on an analysis of all Medicare Part B IDTF claims from 2009, we
(1) identified the top 20 CBSAs with the highest average Medicare payments per beneficiary
for IDTF services, terming these “high-utilization CBSAs”; (2) compared IDTF billing patterns
in high-utilization CBSAs to such billing patterns in all other CBSAs nationally; (3) identified
IDTF claims with questionable characteristics; and (4) compared the prevalence of IDTF
claims with questionable characteristics in high-utilization CBSAs to the prevalence of such
claims in all other CBSAs.  

WHAT WE FOUND

Twenty high-utilization CBSAs accounted for 10.5 percent of Medicare Part B payments for
IDTF services despite having only 2.2 percent of the total population of beneficiaries. Almost
four times more beneficiaries in high-utilization CBSAs received IDTF services than
beneficiaries in all other CBSAs. Nine percent of the IDTFs that served beneficiaries in high-
utilization CBSAs provided 90.1 percent of IDTF services. Additionally, high-utilization CBSAs
had twice as many claims with at least two questionable characteristics as all other CBSAs.

WHAT WE RECOMMEND

We recommend that CMS: (1) monitor IDTF claims for questionable characteristics, (2) take
appropriate action when IDTFs submit a high number of questionable claims, and (3) assess
whether to impose a temporary moratorium on new IDTF enrollments in CBSAs with high
concentrations of IDTFs. CMS concurred with all of our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background..................................................................................................1 

Methodology................................................................................................4 

Findings .......................................................................................................9 

           Twenty high-utilization CBSAs accounted for 11 percent of                                         

           Medicare Part B payments for IDTF services despite having                                                      

           only 2 percent of the total population of Medicare                                               

           beneficiaries ....................................................................................9 

           Nine percent of IDTFs provided 90 percent of IDTF services
           in high-utilization CBSAs .............................................................10 

           High-utilization CBSAs had twice as many IDTF claims with                                                  

           at least two questionable characteristics as all other CBSAs ........11

Recommendations......................................................................................13

           Agency Comments and Office of Inspector General Response ....14 

Appendixes ................................................................................................15 

           A: Table A-1: Comparison of High-Utilization Core Based          

           Statistical Areas to All Other Core Based Statistical Areas ……..15 

           B: Table B-1: Independent Diagnostic Testing Facility Claims

           With Questionable Characteristics: Comparison of

           High-Utilization Core Based Statistical Areas to All Other 

           Core Based Statistical Areas ..........................................................16 

           C: Agency Comments ...................................................................17 

Acknowledgments .....................................................................................20 

             OBJECTIVES
             1.	 To compare the billing patterns of Independent Diagnostic Testing
                 Facilities (IDTF) in high-utilization areas with the billing patterns of
                 IDTFs in other geographic areas.
             2.	 To identify IDTF claims with questionable characteristics.

             BACKGROUND
             Independent Diagnostic Testing Facilities
             Medicare covers inpatient and outpatient clinical and diagnostic services.
             These services can be provided in a number of settings, including
             physicians’ offices, hospitals, and IDTFs. IDTFs, a type of Medicare
             provider, offer diagnostic services and are independent of physicians’
             offices or hospitals.1 From 2002 to 2009, substantial growth occurred in
             the number of IDTFs and in Medicare-allowed charges to IDTFs. The
             number of Medicare-enrolled IDTFs during this time increased from
             2,400 to 6,697, and Medicare-allowed charges for services from IDTFs
             increased from $740 million to $1 billion.2, 3 Previous OIG work has also
             found that high geographic concentrations of providers or services may
             indicate weaknesses in Medicare’s program safeguards.4
             Services that may be provided by an IDTF include, but are not limited to,
             magnetic resonance imaging, ultrasound, x-rays, and sleep studies.
             Although some IDTF services can be performed remotely, such as
             pacemaker monitoring, most require a patient to be present at a facility.
             Historical Vulnerabilities
             IDTF services have historically been vulnerable to fraud, waste, and
             abuse. IDTFs were originally known as Independent Physiological
             Laboratories (IPL). In 1997, after becoming concerned that IPL services
             were vulnerable to abuse—in particular, citing a lack of certification
             requirements and confusion about the type of services that IPLs should
             provide—CMS issued new standards to address these vulnerabilities.5, 6


             1
                  42 CFR § 410.33(a)(1).

             2
               Medicare Payment Advisory Commission, Public Meeting: Characteristics of IDTFs and ambulatory 

             surgical centers. Accessed at http://www.medpac.gov/transcripts/0404_allcombined_transcripts.pdf on

             June 7, 2010.

             3
                  Office of Inspector General (OIG) analysis of 2009 Medicare Part B claims for IDTF services.

             4
              OIG, South Florida Suppliers’ Compliance With Medicare Standards, OEI-03-07-00150, March 2007, and 

             OIG, Aberrant Billing in South Florida for Beneficiaries With HIV/AIDS, OEI-09-07-00030, September 2007.

             5
                  62 Fed. Reg. 59048, 59071–72 (Oct. 31, 1997).

             6
                  62 Fed. Reg. 59048, 59100–01 (Oct. 31, 1997) (adding 42 CFR § 410.33).




OEI-09-09-00380            Questionable Billing for Medicare IDTF Services                                           1
             The new standards modified staffing, certification, and documentation
             requirements for IPLs. IPLs were also renamed IDTFs to help clarify their
             function. 7
             Also in 1997, OIG conducted site visits to IPLs. In an August 1998 report
             based on these visits, OIG reported that 20 percent of IPLs were not at the
             locations on file with CMS.8 In the report, OIG also projected
             $11.6 million in improper payments for IPL services and expressed
             concerns that the new standards that CMS had issued would not be
             sufficient to reduce the vulnerabilities that OIG had identified.9
             Despite the new standards, problems with IDTF services persisted. In a
             2001 review of IDTF services, OIG identified claims that were not
             reasonable, necessary, ordered by a physician, or sufficiently documented
             and projected $71.5 million in improper payments.10 In 2007, CMS
             reported that it had denied $163 million in IDTF charges and terminated
             Medicare billing privileges for 83 IDTFs in Los Angeles.11
             IDTF Enrollments
             An IDTF that wishes to enroll in Medicare must submit an application.
             The application collects a variety of information, including the procedure
             codes for which the applicant intends to bill, the names of supervising
             physicians and technicians, the location where medical records will be
             kept, and the address at which the IDTF will provide services.12
             Before approving an IDTF’s enrollment, CMS reviews the application and
             conducts an initial site visit, which may help to ensure that information on
             the application is correct.
             IDTF Billing Requirements
             Services from IDTFs must be ordered in writing by the physician treating
             the beneficiary, and the physician must also use the results of these
             services to manage the beneficiary’s medical problem.13 In addition,
             nonphysician practitioners may order tests under appropriate physician




             7
                  62 Fed. Reg. 59048, 59071–72 (Oct. 31, 1997).

             8
              OIG, Independent Physiological Laboratories: Vulnerabilities Confronting Medicare, OEI-05-97-00240,

             August 1998.

             9

                  Ibid. 

             10
               OIG, Review of Claims Billed by Independent Diagnostic Testing Facilities for Services Provided to
             Medicare Beneficiaries During Calendar Year 2001, A-03-03-00002, June 2006.
             11
                CMS, Testimony before the House Budget Committee, July 17, 2007. Accessed at http://www.cms.hhs.gov
             on October 5, 2009.

             12
                   Form CMS-855B. Accessed at http://www.cms.hhs.gov on October 13, 2009.

             13
                   42 CFR § 410.33(d).




OEI-09-09-00380             Questionable Billing for Medicare IDTF Services                                          2
             supervision.14 The order must include the diagnosis or the basis for the
             service.
             Postenrollment Site Visits
             According to the Medicare Program Integrity Manual, if an IDTF requests
             an expansion of services and if the new services are sufficiently different
             from those already provided, CMS must conduct a postenrollment site
             visit.15 For example, if an IDTF that provides sleep studies submits a
             request to start providing ultrasound tests, CMS is required to conduct a
             site visit.
             CMS may also conduct postenrollment site visits at its discretion.16 CMS
             cites the use of unannounced site visits as a successful way to determine
             whether IDTFs are operational and at the locations on file with CMS.17
             According to the Medicare Program Integrity Manual, when CMS
             conducts a site visit to verify the operational status of an IDTF, CMS
             should attempt to make its determination using only an external review of
             the IDTF. CMS requires that reviewers document their visits using written
             observations of the facilities and photographs as appropriate.18
             Temporary Moratoria
             In addition to taking administrative actions against individual IDTFs,
             CMS may also reduce the potential for fraud, waste, or abuse by
             instituting a temporary moratorium on IDTF enrollment. CMS’s authority
             to do this for specific provider types, specific geographic areas, or both
             was established by the ACA and implemented in 2011.19
             Related Work
             OIG conducted two concurrent evaluations of IDTFs to determine whether
             they complied with select Medicare standards.20 The evaluations involved
             conducting unannounced site visits in areas with a high density of IDTFs
             that demonstrated questionable billing patterns.21

             14
             15
                42 CFR § 410.32(a)(2).
                CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 10, § 4.19.6(C). Accessed at
             http://www.cms.hhs.gov on February 3, 2011.
             16 42 CFR § 410.33(g)(14).
             17
                  Preamble to final rule implementing sections of the Patient Protection and Affordable Care Act of 2010,
             P.L. 111-148 (ACA). 76 Fed. Reg. 5862, 5869. (Feb. 2, 2011).
             18
                CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 20.1. Accessed at 

             http://www.cms.hhs.gov on February 22, 2011.

             19
                ACA, § 6401(a)(3) (adding section 1866(j)(6) of the Social Security Act, which was designated as 1866(j)(7)

             by the Health Care and Education Reconciliation Act of 2010, P.L. 111-152, § 1304). Implementing 

             regulations for moratoria on newly enrolling Medicare providers and suppliers are at 42 CFR § 424.570.

             20
                  The IDTF Medicare standards are at 42 CFR § 410.33.

             21
                OIG, Miami Independent Diagnostic Testing Facilities’ Compliance With Medicare Standards,
             OEI-05-09-00560; OIG, Los Angeles Independent Diagnostic Testing Facilities’ Compliance With Medicare
             Standards, OEI-05-09-00561.



OEI-09-09-00380           Questionable Billing for Medicare IDTF Services                                                   3
             METHODOLOGY
             Scope
             This evaluation is national in scope and is based on an analysis of all
             Medicare Part B IDTF claims from 2009. We focused the analysis on
             geographic areas with the highest average Medicare payment per
             fee-for-service beneficiary (beneficiary)22 for IDTF services and on claims
             submitted by IDTFs. We define a geographic area as a Core Based
             Statistical Area (CBSA), which is a geographic area based around an
             urban center of at least 10,000 individuals.23
             Data Sources
             Our data sources consist of the 2009 Part B National Claims History
             (NCH) file from CMS, the 2009 Medicare Part A data file, and the
             2009 Denominator File from the Medicare Enrollment Database. The
             Part B NCH file contains claims submitted by noninstitutional providers,
             such as physicians, physician assistants, IDTF providers, and nurse
             practitioners. Claims information includes National Provider Identifiers
             (NPI),24 Provider Identification Numbers (provider ID),25 specialty codes,
             diagnosis and procedure codes, dates of service, the beneficiary’s Health
             Insurance Claim Number (beneficiary identifier), and payment amounts.
             The CMS Denominator File contains enrollment information about each
             beneficiary enrolled in a given calendar year.26 The Medicare Part A data
             file contains claims that were submitted by institutional providers, such as
             hospitals and skilled nursing facilities.
             Data Collection
             CMS considers an IDTF to be a provider specialty rather than a place of
             service. We analyzed the 2009 Part B NCH file for IDTF claims from


             22
               The term “fee-for-service beneficiary” refers to a Medicare beneficiary enrolled in a payment system in
             which providers are paid for each service provided to a beneficiary.
             23
                In 2003, the Office of Management and Budget (OMB) established CBSAs as a new geographic entity.
             OMB designated two categories of CBSAs: metropolitan statistical areas (based on populations of at least
             50,000 people) and new micropolitan statistical areas (based on a population of 10,000–49,999). During our
             review period, there were 955 CBSAs in the United States and Puerto Rico. OMB, OMB Bulletin 09-01:
             Update of Statistical Area Definitions and Guidance on Their Uses, November 20, 2008. Accessed at
             http://www.whitehouse.gov/sites/default/files/omb/assets/omb/bulletins/fy2009/09-01.pdf on
             September 23, 2010.
             24
                An NPI is the standard 10-digit unique health identifier for health care providers. CMS, Glossary. Accessed
             at http://www.cms.gov/apps/glossary/search.asp?Term=npi&Language=English on March 14, 2010.
             25
                A provider ID is a provider identifier that local Medicare contractors assign for each provider practice
             setting. Thus, a single provider many have several provider IDs. National Plan & Provider Enumeration
             System, NPI Application Help. Accessed at https://nppes.cms.hhs.gov/NPPES/Help.do?topic=OtherID on
             September 27, 2010.
             26
                CMS, Denominator File Identifiable Data Files. Accessed at
             http://www.cms.gov/IdentifiableDataFiles/06_DenominatorFile.asp on October 1, 2010.



OEI-09-09-00380         Questionable Billing for Medicare IDTF Services                                                    4
             practice settings that used only specialty code 47—which indicates that a
             claim is for an IDTF service—to bill Medicare.27
             Using specialty code 47 and provider ID fields in the 2009 Part B NCH
             file, we identified IDTFs that submitted claims in 2009. We counted each
             provider ID that had claims only with specialty code 47 as an IDTF. The
             final file included 5,974,969 claims representing $798 million in Medicare
             payments for IDTF services from 6,697 IDTFs.
             Analysis
             To describe IDTF billing patterns and identify questionable IDTF claims,
             we conducted a four-part review of such claims. First, we identified
             CBSAs with the highest average Medicare payments per beneficiary for
             IDTF services. Second, we compared IDTF billing patterns in those
             CBSAs to such billing patterns in all other CBSAs. Third, we identified
             IDTF claims with questionable characteristics. (We describe these
             characteristics in detail on pages 7 and 8 of this report.) Finally, we
             compared the prevalence of such IDTF claims in the two groups of
             CBSAs (i.e., CBSAs with the highest average Medicare payments per
             beneficiary for IDTF services and all other CBSAs).
             Identification of high-utilization CBSAs. Using the 2009 Part B NCH file
             and the 2009 Denominator File, we identified CBSAs with the highest
             average Medicare Part B payments per beneficiary for IDTF services in
             2009. We determined the CBSA to which each beneficiary belonged by
             matching the ZIP Code field from the Part B NCH file and the
             Denominator File with the ZIP Codes corresponding to each CBSA. We
             used the 2009 Denominator File to count the number of beneficiaries in
             each CBSA. We then merged the 2009 Part B NCH file and the
             2009 Medicare denominator file by CBSA. To calculate the average
             Medicare payments per beneficiary for IDTF services within each CBSA,
             we divided the total Medicare payments for IDTF services in 2009 by the
             number of all beneficiaries in each CBSA.
             We analyzed this file to identify the CBSAs (among the total of
             955 CBSAs) with the highest average IDTF payment per beneficiary.
             From this group, we selected the top 20 CBSAs, which we defined as
             high-utilization CBSAs. See Figure 1 for a map showing their locations.



             27
                We analyzed claims from practice settings that billed using specialty code 47 only. We did not include
             practice settings that bill using multiple specialty codes. We focused our study in this manner to analyze the
             same type of claims as OIG’s two concurrent IDTF evaluations that conducted site visits to IDTFs. To best
             target their site visits, the evaluation teams that conducted the concurrent evaluations had to identify locations
             most likely to be IDTFs. They did this by selecting practice settings that billed using only IDTF specialty
             code 47.



OEI-09-09-00380          Questionable Billing for Medicare IDTF Services                                                          5
             Figure 1: High-Utilization CBSAs, 2009




                  Source: OIG analysis of 2009 Medicare Part B IDTF claims.




             Comparison of high-utilization CBSAs to all other CBSAs. We compared
             IDTF billing patterns in these 20 high-utilization CBSAs to IDTF billing
             patterns in all other CBSAs. We did this by identifying the CBSAs
             corresponding to the claims in the 2009 Part B NCH file and the
             2009 Medicare Denominator File, based on the beneficiary’s CBSA.
             First, we summarized the 2009 Part B NCH file by CBSA to generate
             totals of IDTF services, payments, and beneficiaries who received IDTF
             services in high-utilization CBSAs and in all other CBSAs. We used the
             2009 Medicare Denominator File to obtain a count of beneficiaries in
             high-utilization CBSAs and in all other CBSAs. We merged these files to
             calculate utilization measures in high-utilization CBSAs and all other
             CBSAs and compared these utilization measures. Utilization measures
             that we calculated include:
                    the percentage of beneficiaries who received at least one IDTF service;
                    the average number of IDTF services received per beneficiary;


OEI-09-09-00380            Questionable Billing for Medicare IDTF Services                 6
             	 the average Medicare payment per beneficiary who received IDTF
                services;
             	 the number of IDTFs per 10,000 beneficiaries;28 and,
             	 the number of IDTF services those IDTFs provided.
             Identification of questionable characteristics. We developed a list of three
             characteristics that may identify questionable IDTF claims. We based this
             list on IDTF requirements and previous OIG work that analyzed billing
             patterns.29 The characteristics include:
             1.	 Claims involving a beneficiary linked to four or more IDTFs. A
                 beneficiary “linked to” four or more IDTFs is one who had claims
                 submitted from four or more IDTFs in a 1-year period. The presence
                 of claims for beneficiaries who are linked to four or more IDTFs may
                 indicate that providers are inappropriately sharing beneficiary
                 identifiers.30
             2.	 Claims for which beneficiaries did not see their referring physicians
                 within 90 days before or after receiving the IDTF service. We
                 identified the referring physician listed on each IDTF claim and
                 determined whether the physician had a claim for treating the
                 beneficiary within 90 days before or after the beneficiary received the
                 IDTF service. We looked at noninstitutional and institutional claims.31
                 The absence of a claim within 90 days before or after the beneficiary
                 received the IDTF service may indicate that the referring physician is
                 not the treating physician.32
             3.	 IDTF claims on which the diagnosis category33 is not the same as the
                 diagnosis category on any other corresponding provider claim for that
                 beneficiary. We looked at noninstitutional and institutional claims
                 90 days before and after the beneficiary received the IDTF service.



             28
               For ease of reporting, our unit of analysis to measure the concentration of IDTFs in CBSAs is based on the
             number of IDTFs per 10,000 Medicare beneficiaries.
             29
                  OIG, Medicare Part B Billing for Ultrasound, OEI-01-08-00100, June 2009.
             30
               This characteristic was based on OIG, Medicare Part B Billing for Ultrasound, OEI-01-08-00100,
             June 2009.
             31
                Institutional claims under the Medicare Part A and B data files that we reviewed include claims from
             hospitals, nursing facilities, renal dialysis facilities, hospices, federally qualified health centers, and rural health
             clinics.
             32
               This characteristic was based on OIG, Medicare Part B Billing for Ultrasound, OEI-01-08-00100,
             June 2009.
             33
               We determined diagnosis categories based on the Clinical Classification Software system for International
             Classification of Diseases, 9th edition Clinical Modification developed by the Agency for Healthcare Research
             and Quality. Accessed at http://www.hcup-us.ahrq.gov/toolssoftware/ccs/ccs.jsp on September 29, 2010.



OEI-09-09-00380           Questionable Billing for Medicare IDTF Services                                                           7
                    The difference in diagnosis categories may indicate that unnecessary
                    services were provided.34
             Comparison of IDTF claims with questionable characteristics in
             high-utilization CBSAs and such claims in all other CBSAs. We
             determined whether any of the three questionable characteristics were
             present on IDTF claims. We compared the presence of each characteristic
             on IDTF claims from high-utilization CBSAs and on IDTF claims from all
             other CBSAs. Next, we determined how often at least two of the three
             characteristics were present on IDTF claims. We compared how often at
             least two of the three questionable characteristics were present on IDTF
             claims from high-utilization CBSAs and on IDTF claims in all other
             CBSAs.
             Limitations
             We did not conduct a medical review to determine whether services were
             provided, whether services were medically necessary, or whether claims
             were coded correctly.
             The three characteristics that we used to identify questionable claims are
             not intended to be a comprehensive set of characteristics for identifying
             questionable billing. Further, while the presence of such characteristics
             raises questions about the appropriateness of a given IDTF claim, it does
             not necessarily mean that such claims are inappropriate or fraudulent.
             Our 2009 Part B NCH file (5,974,969 IDTF claims) for IDTF services
             included 43,039 IDTF claims in which the IDTF listed its own NPI as that
             of the referring physician.35 CMS instituted a temporary provision
             allowing billing providers to use their own NPIs in the required field for
             the referring physician’s NPI if the billing provider cannot obtain the
             referring physician’s NPI.36 To be conservative, we counted these
             43,039 claims as though the beneficiaries involved had all seen a referring
             physician within 90 days before or after receiving IDTF services.
             Therefore, our results may underestimate the number of beneficiaries who
             did not see a referring physician within that timeframe.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.

             34
                We developed this characteristic based on the requirement that IDTF services be ordered in writing by the 

             physician who is treating the beneficiary and that the order include the diagnosis or the basis for the service.

             42 CFR § 410.33(d).

             35
                  There were 613 IDTFs that entered their own NPIs in the field for the referring physician’s NPI at least once. 

             36
                CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 14, § 14.5. Accessed at 

             http://www.cms.hhs.gov/manuals/downloads/pim83c14.pdf on March 23, 2011.




OEI-09-09-00380            Questionable Billing for Medicare IDTF Services                                                       8
             FINDINGS
             Twenty high-utilization CBSAs accounted for
             11 percent of Medicare Part B payments for IDTF
             services despite having only 2 percent of the total
             population of Medicare beneficiaries
             High-utilization CBSAs accounted for 10.5 percent ($75.8 million of
             $797.9 million) of the Medicare Part B payments for IDTF services in
             2009. However, only 2.2 percent (828,834 of 37.2 million) of
             beneficiaries reside in the high-utilization CBSAs.
             Almost four times more beneficiaries in high-utilization CBSAs
             received IDTF services than beneficiaries in all other CBSAs
             Beneficiaries in high-utilization CBSAs received more IDTF services than
             beneficiaries in all other CBSAs. In 2009, 22.9 percent of beneficiaries in
             high-utilization CBSAs received IDTF services, compared to 6.2 percent
             of beneficiaries in all other CBSAs. The percentage of beneficiaries who
             received IDTF services in high-utilization CBSAs ranged from
             15.2 percent in Troy, Alabama, to 38.8 percent in Jennings, Louisiana.
             The CBSAs with the next-highest percentages of beneficiaries who
             received IDTF services were Poplar Bluff, Missouri (35.0 percent), and
             Las Cruces, New Mexico (30.4 percent). See Appendix A, Table A-1, for
             details on use of IDTF services in high-utilization CBSAs and all other
             CBSAs.
             On average, beneficiaries in high-utilization CBSAs received
             more IDTF services than beneficiaries in all other CBSAs
             On average, beneficiaries who received IDTF services in high-utilization
             CBSAs received slightly more such services than beneficiaries in all other
             CBSAs. Beneficiaries who received IDTF services in high-utilization
             CBSAs received an average of 3.5 such services, compared to 2.4 such
             services in all other CBSAs. The number of IDTF services per beneficiary
             who received such a service in high-utilization CBSAs ranged from 2.5 in
             Yuma, Arizona, to 4.5 in Kerrville, Texas. The CBSAs with the
             next-highest number of IDTF services per beneficiary were Granbury,
             Texas (4.3), and Duncan, Oklahoma (4.1).
             The average Medicare payment per beneficiary who received
             an IDTF service in high-utilization CBSAs was almost
             25 percent higher than in all other CBSAs
             The average Medicare payment per beneficiary receiving IDTF services in
             high-utilization CBSAs was $399.90, compared to $321.33 in all other
             CBSAs. The average Medicare payment per beneficiary receiving such



OEI-09-09-00380     Questionable Billing for Medicare IDTF Services                    9
             services in high-utilization CBSAs ranged from $229.56 in Santa Fe,
             New Mexico, to $484.90 in Troy, Alabama. The CBSAs with the
             next-highest average payment per beneficiary were Miami–
             Fort Lauderdale–Pompano Beach, Florida ($457.75), and Kerrville, Texas
             ($414.87).

             Nine percent of IDTFs provided 90 percent of IDTF
             services in high-utilization CBSAs
             A small number of IDTFs provided most of the IDTF services in
             high-utilization CBSAs. Although 1,676 IDTFs provided at least 1 such
             service to beneficiaries in high-utilization CBSAs, 90.1 percent
             (601,933 of 668,252) of the services were provided by only 9.0 percent
             (151) of those IDTFs. In all other CBSAs, 6,620 IDTFs provided at least
             1 such service to beneficiaries; however, 90.0 percent (4,769,358 of
             5,306,717) of the services were provided by 24.1 percent (1,593) of those
             IDTFs.37 Billing patterns in each high-utilization CBSA were consistent
             with the collective IDTF billing patterns among high-utilization CBSAs.
             For example, in Yakima, Washington, although 66 IDTFs provided at least
             1 IDTF service to beneficiaries in that CBSA, 2 IDTFs provided
             89.5 percent of such services to beneficiaries. Similarly, in Danville,
             Virginia, 45 IDTFs provided at least 1 IDTF service to beneficiaries, and a
             single IDTF provided 93.4 percent of such services to beneficiaries.
             Even though a small number of IDTFs provided most of the IDTF services
             to beneficiaries in high-utilization CBSAs, there was a higher
             concentration of IDTFs in those CBSAs than in all others. There was an
             average of 88.3 IDTFs per 10,000 beneficiaries in high-utilization CBSAs,
             compared to an average of 29.5 per 10,000 beneficiaries in all others.
             Seventy-one percent of IDTFs providing services to
             beneficiaries in high-utilization CBSAs were in the Miami–Fort
             Lauderdale–Pompano Beach, Florida, CBSA
             Of the 9.0 percent (151 of 1,676) of IDTFs that provided 90.1 percent of
             IDTF services to beneficiaries in high-utilization CBSAs, 70.8 percent
             (107 of 151) were in the Miami–Fort Lauderdale–Pompano Beach,
             Florida, CBSA (see Table 1). These 107 IDTFs accounted for 5.2 percent
             ($41.1 million) of the Medicare payments for all IDTF services in 2009.
             However, only 1.4 percent (518,837 of 37.2 million) of beneficiaries
             resided in that CBSA. In addition, the average Medicare payment per
             beneficiary who received an IDTF service from these 107 IDTFs was


             37 The percentage of IDTFs that provided 90 percent of IDTF services is based on IDTFs that submitted claims
             to Medicare for reimbursement, not on the percentage of Medicare-enrolled IDTFs.



OEI-09-09-00380         Questionable Billing for Medicare IDTF Services                                               10
                       $438.98, compared to $294.14 among the remaining 44 IDTFs in this
                       group. These 107 IDTFs provided an average of 4.1 IDTF services to
                       beneficiaries in high-utilization CBSAs, compared to 2.9 IDTF services
                       among the remaining 44 IDTFs in this group.


 Table 1. Billing Patterns From IDTFs That Provided 90 Percent of IDTF Services to
 Medicare Beneficiaries in High-Utilization CBSAs
                                                                                            Average
                                                                                                           Average
                                                                                          Number of
                                                                                                          Medicare
                     Number of                                                                  IDTF
                                       Number of          Number of                                       Payment
                    IDTFs That                                                             Services
                                             IDTF       Beneficiaries                                            per
                      Provided                                                                    per
 CBSA                                    Services                Who            Total                   Beneficiary
                           IDTF                                                          Beneficiary
 Where the                            Provided to          Received         Medicare                            Who
                   Services to                                                                  Who
 IDTFs Were                          Beneficiaries       Services in     Payments for                     Received
                  Beneficiaries                                                            Received
 Located                                  in High-              High-   IDTF Services                          IDTF
                       in High-                                                                 Such
                                       Utilization        Utilization                                   Services in
                     Utilization                                                           Services
                                           CBSAs             CBSAs                                             High-
                        CBSAs                                                               in High-
                                                                                                         Utilization
                                                                                          Utilization
                                                                                                            CBSAs
                                                                                             CBSAs
 Miami–Fort
 Lauderdale–
                             107                              93,708                             4.1        $438.98
 Pompano                                   379,748                      $41,135,779.96
 Beach, FL

 Other High-
                               44          222,185            75,766    $22,285,647.37           2.9        $294.14
 Utilization
 CBSAs

                             151           601,933           168,059    $63,421,427.33           3.6        $377.38
 Total

Source: OIG analysis of 2009 Medicare Part B IDTF claims.




                       High-utilization CBSAs had twice as many IDTF claims
                       with at least two questionable characteristics as all
                       other CBSAs
                       In 2009, 17.5 percent of IDTF claims in high-utilization CBSAs had at
                       least two questionable characteristics, compared to 8.0 percent of IDTF
                       claims in all other CBSAs. These IDTF claims accounted for
                       $10.0 million (12.5 percent) of the Medicare payments for IDTF services
                       in high-utilization CBSAs. See Appendix B, Table B-1, for a list of
                       high-utilization CBSAs with the corresponding percentages of claims with
                       at least two questionable characteristics.
                       Five times more IDTF claims in high-utilization CBSAs than in
                       all other CBSAs involve a beneficiary linked to four or more
                       IDTFs
                       In high-utilization CBSAs, 15.4 percent (103,220 of 668,252) of IDTF
                       claims involve a beneficiary linked to four or more IDTFs, compared to
                       2.7 percent of such claims in all other CBSAs. The presence of claims for



 OEI-09-09-00380                    Questionable Billing for Medicare IDTF Services                                    11
             beneficiaries linked to four or more IDTFs may indicate that providers are
             inappropriately sharing beneficiary identifiers. The percentage of IDTF
             claims for which the beneficiary was linked to four or more IDTFs ranged
             from 0.2 percent in Duncan, Oklahoma, to 21.7 percent in Miami–Fort
             Lauderdale–Pompano Beach, Florida. The high-utilization CBSAs with
             the next-highest percentages were Lafayette, Louisiana (9.1 percent), and
             Fayetteville, North Carolina (6.1 percent).
             Seventeen percent of IDTF claims in high-utilization CBSAs
             had no corresponding claim by the referring physician
             In high-utilization CBSAs, 17.3 percent (115,669 of 668,252) of IDTF
             claims had no corresponding claim by the referring physician within
             90 days before or after the beneficiary received the IDTF service,
             compared to 14.2 percent of IDTF claims in all other CBSAs. The
             absence of a claim 90 days before or after receiving the IDTF service may
             indicate that the referring physician is not the treating physician. The
             percentage of IDTF claims that had no corresponding claim by the
             referring physician ranged from 5.4 percent in Rio Grande City–Roma,
             Texas, to 21.8 percent in Santa Fe, New Mexico. The high-utilization
             CBSAs with the next-highest percentages were Fayetteville,
             North Carolina (21.7 percent), and Miami–Fort Lauderdale–
             Pompano Beach, Florida (19.5 percent).
             More than 46 percent of claims in high-utilization CBSAs did
             not have the same diagnosis categories as any other
             corresponding provider claims
             In high-utilization CBSAs, 46.7 percent (311,910 of 668,252) of IDTF
             claims did not have the same diagnosis categories as any other
             corresponding provider claims 90 days before or after the beneficiary
             received an IDTF service, compared to 35.4 percent of IDTF claims in all
             other CBSAs. If the diagnosis category on the IDTF claim is not the same
             as that on any other corresponding provider claim within 90 days before or
             after the beneficiary received the IDTF service, it may indicate that the
             IDTF provided unnecessary services. The percentage of IDTF claims on
             which the diagnosis categories did not match any other provider claims
             ranged from 2.7 percent in Grand Island, Nebraska, to 61.5 percent in
             Santa Fe, New Mexico. The high-utilization CBSAs with the next-highest
             percentages were East Stroudsburg, Pennsylvania (55.1 percent), and
             Miami–Fort Lauderdale–Pompano Beach, Florida (52.2 percent).




OEI-09-09-00380     Questionable Billing for Medicare IDTF Services                  12
             RECOMMENDATIONS
             This report found that high-utilization CBSAs accounted for 10.5 percent
             of Medicare Part B payments for IDTF services despite having only
             2.2 percent of the total population of beneficiaries. Almost four times
             more beneficiaries in high-utilization CBSAs received IDTF services than
             beneficiaries in all other CBSAs. Nine percent of the IDTFs that served
             beneficiaries in high-utilization CBSAs provided 90.1 percent of IDTF
             services. Additionally, high-utilization CBSAs had twice as many claims
             with at least two questionable characteristics as all other CBSAs.
             Another OIG review of IDTFs—Los Angeles Independent Diagnostic
             Testing Facilities’ Compliance With Medicare Standards
             (OEI-05-09-00561)—recommended that CMS impose a moratorium on
             new IDTF enrollments in the Los Angeles area while CMS develops
             additional safeguards for IDTFs in the area. Because services provided by
             IDTFs are also available at physicians’ offices and hospitals, an enrollment
             moratorium on IDTFs is unlikely to have a negative impact on
             beneficiaries’ access to these services.
             We recommend that CMS:
             Monitor IDTF claims for questionable characteristics
             CMS should monitor IDTF claims for questionable characteristics to
             identify vulnerabilities. Claims exhibiting readily identifiable
             questionable characteristics may include those on which the beneficiaries
             were linked to four or more IDTFs; claims that lacked corresponding
             claims by the referring physicians; and claims for which the diagnosis
             categories were not the same as those on any other provider claims for
             those beneficiaries.
             Take appropriate action when IDTFs submit a high number of
             questionable claims
             When IDTFs are found to have a high rate of questionable billing
             characteristics, CMS should review those claims before payment to ensure
             that they are appropriate. If CMS determines that inappropriate claims
             have been submitted, it should take steps to suspend payments for these
             providers and/or recover inappropriate payments made to them.
             Assess whether to impose a temporary moratorium on new
             IDTF enrollments in CBSAs with high concentrations of IDTFs
             Given that a small number of IDTFs provide most IDTF services in
             high-utilization CBSAs, CMS should assess whether to impose a
             temporary moratorium on new IDTF enrollments in those CBSAs. Such a
             moratorium would prevent new enrollments while CMS develops program
             safeguards, such as more frequent in-depth reviews of lDTFs. In the


OEI-09-09-00380     Questionable Billing for Medicare IDTF Services                   13
             report entitled Los Angeles Independent Diagnostic Testing Facilities’
             Compliance With Medicare Standards (OEI-05-09-00561), OIG
             recommended that CMS impose a moratorium on new IDTF enrollments
             in the Los Angeles area.

             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             In its written comments on our draft report, CMS concurred with all of our
             recommendations. CMS stated that it is using predictive modeling
             technology to detect and generate alerts for suspicious billing by IDTFs.
             CMS indicated that it is using authorities granted in the ACA to address
             potential vulnerabilities in the enrollment and claims payments processes
             for IDTFs.
             In our draft report, we recommended that CMS monitor IDTF claims for
             questionable characteristics. In response, CMS stated that it is streaming
             every Medicare fee-for-service claim before payment through its
             predictive modeling technology, known as FPS. The FPS uses a series of
             algorithms to identify potentially fraudulent claims and prioritize the most
             egregious situations. CMS is intent on building reliable models in the FPS
             that can detect and generate alerts for suspicious billing by all major
             provider types, including IDTFs. Furthermore, IDTFs have been and will
             remain a key focus for CMS’s program integrity operations. OIG supports
             CMS’s continued development of FPS and its predictive modeling efforts
             to identify fraudulent claims and prevent payments.
             We recommended that CMS take appropriate action when IDTFs submit a
             high number of questionable claims. In response, CMS stated that it is
             taking a variety of administrative actions against many provider types
             around the Nation, including IDTFs. Administrative actions may include,
             but are not limited to, verification of operational status, prepayment
             review, auto-deny edits, payment suspensions, and revocations. OIG
             supports CMS’s administrative action efforts and agrees that they may
             help address IDTFs that submit a high number of questionable claims.
             In our draft report, we recommended that CMS assess whether to impose a
             temporary moratorium on new IDTF enrollments in CBSAs with high
             concentrations of IDTFs. In response, CMS stated that in developing its
             approach for implementing the new temporary moratorium authority, it
             will assess whether moratoria are appropriate for a variety of provider
             types, including IDTFs. OIG supports CMS’s use of a variety of data and
             information, including factors such as high concentration of IDTFs and
             high IDTF utilization, to determine whether a moratorium would be
             appropriate. For the full text of CMS’s comments, see Appendix C.


OEI-09-09-00380     Questionable Billing for Medicare IDTF Services                   14
                  APPENDIX A


Table A-1. Comparison of High-Utilization Core Based Statistical Areas to All Other Core
Based Statistical Areas
                                                        Percentage of
                                                                                               Average Payment
                                             Medicare Beneficiaries
                                                                         Average Number of         per Medicare
     Core Based Statistical Areas (CBSA)               Who Received
                                                                          IDTF Services per     Beneficiary Who
     (Alphabetical Order)                                Independent
                                                                        Medicare Beneficiary     Received IDTF
                                                 Diagnostic Testing
                                                                                                       Services
                                             Facility (IDTF) Services
1    Alamogordo, New Mexico                                   22.0%                      2.7           $358.67

2    Danville, Virginia                                       30.3%                      2.6           $266.83

3    Duncan, Oklahoma                                         28.3%                      4.1           $273.91

4    East Stroudsburg, Pennsylvania                           26.4%                      2.7           $337.11

5    Fayetteville, North Carolina                             26.5%                      2.6           $258.87

6    Granbury, Texas                                          24.8%                      4.3           $327.96

7    Grand Island, Nebraska                                   23.8%                      2.9           $354.14

8    Jennings, Louisiana                                      38.8%                      2.8           $284.63

9    Kerrville, Texas                                         16.4%                      4.5           $414.87

10   Lafayette, Louisiana                                     22.0%                      3.0           $354.75

11   Las Cruces, New Mexico                                   30.4%                      3.2           $325.72

     Miami–Fort Lauderdale–Pompano
12                                                            21.5%                      3.9           $457.75
     Beach, Florida
13   Natchez, Mississippi–Louisiana                           28.9%                      3.0           $344.38

14   Opelousas–Eunice, Louisiana                              19.0%                      3.0           $354.71

15   Poplar Bluff, Missouri                                   35.0%                      3.4           $338.13

16   Rio Grande City–Roma, Texas                              20.4%                      2.7           $339.44

17   Santa Fe, New Mexico                                     29.4%                      3.1           $229.56

18   Troy, Alabama                                            15.2%                      3.1           $484.90

19   Yakima, Washington                                       21.8%                      2.6           $308.70

20   Yuma, Arizona                                            22.4%                      2.5           $387.65

     All High-Utilization CBSAs Combined                      22.9%                      3.5           $399.90

     All Other CBSAs                                           6.2%                      2.4           $321.33




OEI-09-09-00380               Questionable Billing for Medicare IDTF Services                              15
                 APPENDIX B
  Table B-1. Independent Diagnostic Testing Facility Claims With Questionable
  Characteristics: Comparison of High-Utilization Core Based Statistical Areas to All Other
  Core Based Statistical Areas
                                                                              Percentage
                                                   Total                                    Percentage
                                                                                  of IDTF
                                             Number of      Percentage of                       of IDTF    Percentage of
                                                                               Claims on
                                           Independent       IDTF Claims                    Claims That     IDTF Claims
                                                                               Which the
       Core Based Statistical Areas          Diagnostic      With Two or                       Lacked a            With
                                                                                Medicare
       (CBSA) (Alphabetical Order)              Testing             More                       Claim by      Unmatched
                                                                              Beneficiary
                                                Facility    Questionable                             the      Diagnosis
                                                                             Is Linked to
                                                 (IDTF)    Characteristics                    Referring       Categories
                                                                                  Four or
                                                Claims                                        Physician
                                                                             More IDTFs
  1    Alamogordo, New Mexico                                        2.6%           2.0%         14.1%             10.0%
                                                  5,336
  2    Danville, Virginia                                            9.5%           0.3%         13.4%             49.7%
                                                 15,717
  3    Duncan, Oklahoma                                              3.6%           0.2%          6.3%             43.5%
                                                 10,012
  4    East Stroudsburg, Pennsylvania                              12.0%            1.8%         15.4%             55.1%
                                                 16,382
  5    Fayetteville, North Carolina                                10.1%            6.1%         21.7%             36.1%
                                                 25,874
  6    Granbury, Texas                                               5.9%           2.6%          9.6%             38.6%
                                                 12,248
  7    Grand Island, Nebraska                                        0.8%           2.6%          6.4%             2.7%
                                                  7,169
  8    Jennings, Louisiana                                           1.8%           3.1%          8.4%             5.8%
                                                  5,582
  9    Kerrville, Texas                                              1.4%           1.8%          9.7%             10.3%
                                                  9,715
  10   Lafayette, Louisiana                                        11.0%            9.1%         12.3%             46.2%
                                                 21,807
  11   Las Cruces, New Mexico                                        7.5%           5.7%         12.8%             39.0%
                                                 23,242
       Miami–Fort Lauderdale–
  12                                                               22.7%          21.7%          19.5%             52.2%
       Pompano Beach, Florida                  435,781

  13   Natchez, Mississippi–Louisiana                                5.4%           5.5%         14.8%             21.1%
                                                  8,886
  14   Opelousas–Eunice, Louisiana                                   9.0%           3.7%         11.7%             46.3%
                                                  8,811
  15   Poplar Bluff, Missouri                                        5.3%           3.7%         11.5%             26.1%
                                                 10,164
  16   Rio Grande City–Roma, Texas                                   3.0%           3.3%          5.4%             23.0%
                                                  4,072
  17   Santa Fe, New Mexico                                        16.8%            2.5%         21.8%             61.5%
                                                 16,704
  18   Troy, Alabama                                                 6.8%           1.6%          8.7%             45.3%
                                                  2,247
  19   Yakima, Washington                                            2.7%           1.7%          8.3%             11.4%
                                                 16,160
  20   Yuma, Arizona                                                 7.5%           3.5%         11.1%             43.0%
                                                 12,343
       All High-Utilization CBSAs
                                               668,252             17.5%          15.4%          17.3%             46.7%
       Combined
       All Other CBSAs                       5,306,717               8.0%           2.7%         14.2%             35.4%




OEI-09-09-00380               Questionable Billing for Medicare IDTF Services                                 16
                  APPENDIXC
                  Agency Comments


              /fP.o;lC:~.~



          (         ~        DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                              Centers lor Medicare & Medicaid Services
                                                                                                              Office 01Strat. Opef8tions


              <~~
                                                                                                                and RflgtJls/O<y Aff....


                                                                                                             200 Independence Avenue SW
                                                                                                             Washington, DC 20201




                        DATE:        DEC 2 3 2011
                        TO: 	           Daniel R. Levinson 

                                        ll\~peotor General 

                                                               /S/
                        FROM: 	         Mwil,yn TjlVenner 

                                        Acting Aibninis1rator 


                        SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Questionable Billing for
                                   Medicare Independent Diagnostic Testing Facility Services" (OEI-09-09-00380)


                        'The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                        comment on the Office oflnspector General (010) draft report entitled, "Questionable Billing
                        for Medicare Independent Diagnostic Testing Facility Services." The purpose of this report was
                         to compare the billing patterns oflndependent Diagnostic Testing Facilities (IDTFs) in high­
                         utilization areas with billing patterns oflDTFs in other geographic areas and to identify IDTF
                         claims with questionable characteristics.

                         IDTFs offer diagnostic services and are independent of a physician's office or hospital. 

                         According to OIG's report, the number ofMedicare-enrolled IDTFs from 2002 to 2009 

                         substantially grew, as did the Medicare-allowed charges for IDTFs. 


                         IDTF services have historically been vulnerable to abuse. CMS is currently streaming every
                         Medicare fee-for-service claim in real-time through its predictive modeling technology, known
                         as the Fraud Prevention System (FPS). 'The FPS uses a series of algorithms to identify
                         potentially fraudulent claims and prioritize the most egregious situations. As each claim streams
                         through the predictive modeling system, the system builds profiles of providers, networks, and
                         billing patterns. Using these profiles, CMS estimates a claim's likelihood of fraud and prioritizes
                         providers with billing behavior that seem to pose an elevated risk to Medicare for a closer
                         review. CMS will explore opportunities to build reliable models in the FPS that Can detect and
                         generate alerts for suspicious billing behavior by IDTFs.

                         In addition, CMS is taking additional steps to address potential vulnerabilities in the enrollment
                         and claims payment process for this supplier group using the authorities granted under the
                         Affordable Care Act. Under the new screening provisions of CMS 6028-FC 1 alllDTFs are


                         I eMS 6028.FC entitled, uMedicare, Medicaid and Children's Health Insurance Programs; Additional Screening
                         Requirements, Application Fees, Temporary Enrollment Moratoria, Payment Suspensions and Compliance Plans for
                         Providers and Suppliers" was published in the Federal Register on February 2, 20 II .




OEI-09-09-00380                 Questionable Billing for Medicare IDTF Services                                                        17
OEI-09-09-00380   Questionable Billing for Medicare IDTF Services   18
OEI-09-09-00380   Questionable Billing for Medicare IDTF Services   19
             Acknowledgments
             This report was prepared under the direction of Timothy S. Brady,
             Regional Inspector General for Evaluation and Inspections in the San
             Francisco regional office, and Michael Henry, Deputy Regional Inspector
             General.
             Veronica Gonzalez served as the team leader for this study, and
             Loul Alvarez served as lead analyst. Other principal Office of Evaluation
             and Inspections staff from the San Francisco regional office who
             contributed to the report include Christina Lester; central office staff who
             contributed include Robert Gibbons, Scott Horning, Scott Hutchison, and
             Kevin Manley.




OEI-09-09-00380      Questionable Billing for Medicare IDTF Services                   20
                      Office of Inspector General 

                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
